        Tennessee Valley Authority
        Office of the Inspector General




Report of Administrative Inquiry

INQUIRY INTO ALLEGED
VIOLATION OF THE
GOVERNMENT IN THE SUNSHINE ACT
OIG FILE NO. 17A-14875




                   1
                                  EXECUTIVE SUMMARY

 Tennessee Valley Authority       INQUIRY INTO ALLEGED
Office of the Inspector General
                                  VIOLATION OF THE
                                  GOVERNMENT IN THE SUNSHINE ACT
                                  OIG FILE NO. 17A-14875
                                  This investigation was initiated after the Tennessee Valley Authority
                                  (TVA) Office of the Inspector General (OIG) received a complaint alleging
                                  the TVA Board of Directors (Board) failed to give proper notice as
                                  required by the Government in the Sunshine Act (Sunshine Act) when the
                                  Board selected William D. (Bill) Johnson as TVA’s President and Chief
                                  Executive Officer (CEO).

                                  Our investigation found the following:

                                         The Sunshine Act requires public meetings by an executive
                                          agency be open to the public. However, as a legal matter, the
                                          prevailing view as indicated by the District of Columbia, U.S.
                                          Appellate Court, is that notational voting does not constitute a
                                          meeting, and it does not constitute a violation of the Sunshine
                                          Act. Furthermore, because notational voting does not constitute
                                          a meeting as described in the Sunshine Act, notice is not
                                          required.

                                         In selecting a CEO, the Board decided to use the notational
                                          process to protect the privacy of applicants and to address the
                                          difficulties of obtaining a quorum at that time.

                                         The evidence developed by our investigation shows the Board
                                          followed notational procedure by not discussing the candidates’
                                          qualifications or otherwise deliberating with one another about the
                                          selection. Board members voted separately.

                                         Because the Sunshine Act does not prohibit the notational
                                          procedure and the evidence demonstrates that the Board
                                          properly used that procedure, the Board did not violate the
                                          Sunshine Act.




                                                            i
 Tennessee Valley Authority
Office of the Inspector General




             April 26, 2013

             William D. Johnson, WT 7B-K

             INQUIRY INTO ALLEGED
             VIOLATION OF THE
             GOVERNMENT IN THE SUNSHINE ACT
             OIG FILE NO. 17A-14875




             INVESTIGATIVE BACKGROUND
             We have completed our investigation of an allegation regarding the Board’s
             compliance with the Sunshine Act. Specifically, the complainant alleged TVA failed to
             notify the public of the meeting when the Board voted to select Mr. Johnson and that
             this constituted a violation of the Sunshine Act found at Title 5, United Stated Code
             (USC) § 552b, and as implemented at TVA by Title 18, Code of Federal Regulations
             (CFR), §§ 1341-1348.

             Our investigation included the review of relevant documents and interviews of Board
             members, TVA staff, and the consultant who assisted the Board in the CEO hiring
             process. Additionally, the OIG legal staff conducted an independent legal review of the
             Sunshine Act and notational process.

             The evidence supporting our findings is summarized below.


             CANDIDATE SELECTION
             When Tom Kilgore, former TVA President and CEO, announced he would retire at age
             65, the Board started the process of finding a replacement. In July 2012, the Board
             hired a consultant, Albert L. McAulay, Jr., to conduct a search for candidates to fill the
             CEO position. Numerous candidates were identified by Mr. McAulay, and ultimately
             nine candidates were presented to the TVA Board to be interviewed.

             A primary concern of the Board upon entering the selection process was to maintain
             the privacy interests of the candidates. Making the candidates’ identities known might
             jeopardize their current jobs or jobs to which they may have applied. To address the
             interest in maintaining the confidentiality of the candidates while complying with all
             laws, regulations, and policies applicable to Board meetings, the Board received advice
             from the TVA Office of General Counsel (OGC).
William D. Johnson
Page 2
April 26, 2013



Candidates were interviewed by the Board (under the direction of Mr. McAulay) in late
September and early October 2012. Not all Board members were present during all
the interviews. In an effort to comply with the Sunshine Act, the Board was advised by
OGC to not discuss his or her views or impressions of a candidate with other Board
members. The evidence indicates that no such discussions occurred.

Board members’ impressions of the candidates were given to Mr. McAulay. Through
these impressions and one-on-one consultations with Board members, Mr. McAulay
narrowed the number of candidates to four and then to one – Mr. Johnson. Bill Sansom,
Chairman of the TVA Board; Janet Herrin, TVA Chief Administrative Officer; and
Mr. Johnson then discussed compensation. This meeting provided a basis for a future
agreement on compensation, and it was decided the Board should vote on whether to
hire Mr. Johnson as CEO.


VOTING PROCESS
The Board opted to hold a notational vote. Notational voting refers to the process
whereby a governing body votes individually and separately as opposed to a vote
taken at a meeting. According to the District of Columbia, U.S. Appellate Court, in the
case of Railroad Commission of Texas v. United States (1985, App.D.C.) (246 U.S.
App.D.C. 352, 763 F.2d 221), the Sunshine Act does not proscribe notational voting.
The Court stated that the “Sunshine Act does not require that meetings be held in order
to conduct agency business; rather, that statute requires only that, if meetings are held,
they be open to the public….” Additionally, a meeting is defined in the Sunshine Act as
“the deliberations of at least the number of agency members required to take action on
behalf of the agency where such deliberations determine or result in the joint conduct
or disposition of official agency business….” Because notational voting does not
involve deliberations, it is not a meeting under the Sunshine Act; therefore, public
notice is not required.

Board members said notational voting was chosen for several reasons. The first was,
as stated earlier, to maintain the privacy of the candidates. A second reason was it
was believed Mr. Johnson had other job opportunities and that time was of the
essence. Finally, it was uncertain whether a quorum of Board members could attend a
meeting. A quorum of the Board requires the presence of five members and, at that
time, there were only six appointed Board members, making it difficult to ensure a
quorum. A Board member acknowledged that for public perception and poltical
reasons, it was preferrable to use a more open decision-making process, but
circumstances dictated using the notational process.

The notational vote was taken on November 1, 2012. Board members confirmed they
followed the TVA Board Practice governing notational approvals. Votes were cast
individually, and there is no evidence deliberations occurred. The vote was unanimous
in selecting Mr. Johnson as the CEO. The TVA Board Practice – Notational Approvals
and the tally sheet are attached as appendices to this report. The Board later
confirmed the vote in a public meeting.
William D. Johnson
Page 3
April 26, 2013




FINDINGS
The Sunshine Act requires public meetings by an executive agency be open to the
public. However, the District of Columbia, U.S. Appellate Court, has held that notational
voting does not constitute a meeting and is not proscribed by the Sunshine Act.

In selecting a CEO, the Board decided to use the notational process in order to protect
the applicants’ privacy and to address the difficulties of obtaining a quorum at that time.
The Board followed notational procedure by not discussing the candidates’
qualifications or otherwise deliberating with one another about the selection. Board
members voted separately.

Notational procedure is not prohibited by the Sunshine Act, and the Board followed that
process. Thus, the evidence indicates the Board did not violate the Sunshine Act.

This report has been designated “TVA Restricted” in accordance with TVA-SPP-12.02,
TVA Information Management Policy. Accordingly, it should not be disclosed further
without the prior approval of the Inspector General or his designee. In addition, no
redacted version of this report should be distributed without notification to the Inspector
General of the redactions that have been made.




John E. Brennan
Assistant Inspector General
  (Investigations)
ET 4C-K

JEB:MSW
cc: Peyton T. Hairston, Jr., WT 7B-K
    Ralph E. Rodgers, WT 6A-K
    OIG File No. 17A-14875
                                                                              APPENDIX A
                                                                              Page 1 of 3



       TVA BOARD PRACTICE – NOTATIONAL APPROVALS

Background

Section 1.7 of the Bylaws of The Tennessee Valley Authority provides that the TVA
Board may take action by a majority vote of all members, at times other than during a Board
meeting, by notational approval by individual Board members, subject to the following
requirements:

       Personal notice of the notational item is provided to individual Board members by
        electronic mail or as otherwise specified by individual Board members;

       Board members have at least seven calendar days within which to submit their
        individual votes, unless the Board Chairman specifies an earlier deadline (but in no
        event fewer than three calendar days).

By adopting this TVA Board Practice, the TVA Board wishes to set forth supplemental
policies, processes, and criteria to govern the notational approval process and to guide and
direct management, Board committees, and individual Board members as to how requests
for notational approvals are to be handled.

Guiding Principle

The notational approval process is to provide a means by which the Board may take timely
and appropriate action on matters between Board meetings. This notational approval
process must be carried out in a way that is fully consistent with the Board’s responsibility to
exercise careful and prudent oversight and their ability to lead TVA with integrity and open
and transparent accountability.

Criteria for Notational Approvals

To be eligible for notational consideration by Board members, a proposed action item must
meet one or more of the following criteria. The Board Approval Memorandum which
transmits any action item for notational approval must designate one or more of these
criteria as being applicable and must provide appropriate supporting information to inform
the Board as to the basis for such applicability.

1. Time Sensitive

   a. Deadline -- Example: An externally-established deadline for TVA action will expire
      before the date of the next scheduled Board meeting, with no reasonable opportunity
      for obtaining an extension.

   b. “Fleeting Opportunity” -- Example: An uncertain amount of time exists during which
      TVA will have a chance to take advantage of an opportunity before it is seized by
      another or otherwise will cease to exist.
                                                                            APPENDIX A
                                                                            Page 2 of 3



     c. Negative Cost/Value Trend -- Example: The passage of time will likely cause TVA’s
        costs under the action item to increase or the value to TVA of approving the action
        item to decrease.

2.   Confidential

     a. Individual Privacy -- Example: Action item includes personal information about one
        or more individuals, which either is protected under the Privacy Act, is otherwise
        exempt from disclosure under the Freedom of Information Act (FOIA), or is
        otherwise considered sensitive.

     b. Other’s Proprietary/Confidential Information -- Example: Action item includes
        information that is proprietary/confidential information of a party other than TVA
        which is either prohibited from disclosure under the Trade Secrets Act or exempt
        from disclosure under FOIA. This criteria also would apply to TVA’s annual budget
        submissions to the Administration, because public disclosure of the contents of such
        submissions is routinely prohibited by order of the President until the President’s
        Budget is submitted to Congress, as well as being exempt from disclosure under
        FOIA.

     c. TVA’s Proprietary/Confidential Information -- Example: Action item includes
        information that TVA considers to be “business sensitive” or to be
        proprietary/confidential and which would be otherwise exempt from disclosure under
        FOIA.

3. Not of Material Public Interest

     Example: Action item involves subject matter which can be reasonably considered to
     not be of material interest to members of the public, and consideration and approval of
     such action item would not be an efficient use of Board time during meetings. This will
     often be an approval item that is considered routine and noncontroversial, but for some
     reason (e.g., statutory) requires action by the Board.

Personal Notice to Individual Board Members

The Chief Executive Officer, in consultation with the appropriate Committee Chair when
applicable, will assure that a process is in place under which all Board members, to the
extent feasible, will be personally notified by nonelectronic or other effective means when
any action item which is potentially significant or controversial is being provided to them
individually for notational approval.
                                                                          APPENDIX A
                                                                          Page 3 of 3



Pre-voting Review Period

For each action item being proposed for notational approval by the Board, the Chair of the
Committee proposing the approval, or the Chairman of the Board in the absence of a
Committee recommendation, shall specify the number of calendar days during which
individual Board members will have the opportunity to review the proposed action item and
make inquiries and/or comments in advance of the date on which notational voting will
commence.

In the absence of such a specification, the date on which voting shall commence on a
notational approval action item shall be three calendar days after the day on which
information on that action item is provided to the individual Board members.

Openness and Transparency

In a manner consistent with the requirements of applicable Federal law, the Chief Executive
Officer shall assure that disclosure to the public is made of those action items that have
been notationally approved by the Board in at least the following two ways:

1. Board Meeting Agendas -- Each action item notationally approved by the Board
   between Board meetings shall be disclosed and appropriately identified as an
   “Information Item” on the agenda for the upcoming Board meeting, which is required by
   the Government in the Sunshine Act to be published in the Federal Register at least one
   week in advance of the meeting.

   The Chief Executive Officer, in consultation with the appropriate Committee Chair when
   applicable, shall further assure that TVA is prepared to respond, in a manner consistent
   with the limitations of applicable Federal law, to public inquiries about any notational
   approval item that appears as an “Information Item” on the agenda for a Board meeting.

2. Board Meeting Minutes -- Each action item notationally approved by the Board
   between Board meetings shall be disclosed and appropriately identified in the minutes of
   the next public Board meeting, which minutes shall be publicly available.


-------------------------------------------------------
Approved by the Board of Directors of the Tennessee Valley Authority, November 30, 2006.
APPENDIX B
Page 1 of 2
APPENDIX B
Page 2 of 2
